                         CLOSEOUT FOR M95010001
      This case came to OIG on January 4, 1995, when we received an
 "Open Letter f                                   [the department] to
 the College                                      n letter) at the
 University of                                (the university) . The
                                                               -

 letter, containing various allegations of impropriety, was sent
 anonymous1     We received further allegations on
  V . d
 from Dr.                N S F program director for the




   -
-
I                 Program, who had been sent the open letter and an
 additional anonymous letter. An anonymous informant subsequently




                                                                    -
 sent the program director more information concerning this matter,




  - -
 which he also passed on to OIG. At a later date, OIG received
 additional allegations from members of the department.
       The open letter alleged misrepresentations in N S F proposals,
  two of which proposals resulted in awards. These proposals were
  submitted by Dr.                (the subject), who heads the
b-1           (the Laboratory) at the university. The Laboratory is
  affiliated with the department but, according to the letter, there
  is considerable tension between the two. The awards involved are
               (Award #1) and               (Award #2) .These awards
  support personnel and equipment to improve the infrastructure for
  research, but do not support specific research projects as such.
  A declined proposal,- I              3-                   was also
  involved in the allegations.
       The open letter alleged that the subject's proposals contained
  the following misrepresentations: (1)they misrepresented proposed
  equipment purchases as placing new equipment under the control of
  the subject's department and (2) they misrepresented the subject's




                                                                    --
                rd is entitled
                          SI-T                           \IV
                                                       are
                            and
                             k -    1

        his award is also entitled
          I   .-, -                      The subject's co-PIS are
                                           and.r,-.
       3 ~ h e~ r o ~ o s a is
                            l entitled   llm
  subject's co-PIS are

                                page 1 of 3
                      CLOSEOUT FOR M95010001

department as endorsing his plans for a new Ph.D. program at the
university. In addition, an anonymous letter to the NSF program
officer alleged that the subject misrepresented his credentials.
     OIG examined the subjectls three proposals and determined that
he did not make any of the alleged misrepresentations. With regard
to the first alleged misrepresentation, OIG determined that the
proposals clearly indicated that equipment purchased with NSF funds
would go to the Laboratory, which is affiliated with (but not
controlled by) the department, and not to the department itself.
In this respect, the representations in the proposal were entirely
consistent with what the open letter claimed was the actual
situation. With regard to the second allegation, the proposals
referred to a new Ph.D. program involving researchers in the
department, but never represented this planned program either as
under the department's control or as endorsed by the department.
There was no evidence or allegation in the open letter to suggest
that the PI and other faculty associated with the Laboratory were
not in fact planning such a program.
     The anonymous letter alleged that the subject misrepresented
his credentials by claiming to hold three Ph.D. degrees when he




                                                            -
held only one. OIG examined the subjectfs curriculum vitae and
determined that it indicates he holds only one Ph.D.
     Department members     later alleged      that   the   subject
misrepresented the participation of two researchers in the
activities proposed as part of Award #2.        Specifically, tzhey
alleged that Dr..                   (the alleged co-PI) was listed
as a co-PI wr
            -
            o
            h
            t
            i                         consent and that Dr.
0 (the'alleged collaborator) was listed as a collaborator on
certain research projects although he was not expected to return to
the university after a leave of absence.
     OIG examined NSFfs award jacket for Award #2. We determined
that the alleged co-PI was one of twelve researchers listed as co-
PIS in the body of the proposal and on the cover page, but was not
one of the five researchers whose signatures certified to NSF that
they "accept responsibility for the scientific conduct of the
project.   We also determined that, shortly after the allegation
concerning the alleged co-PI surfaced, the subject informed NSF
that the alleged co-PI was no longer involved in the activities
Award # 2 supported. OIG concluded that the proposal's alleged
misrepresentation of the alleged co-PI'S involvement was not
sufficiently serious that it could be considered misconduct in
science. OIG concluded that there was no evidence that the alleged
collaboratorlsinvolvement in the project was ever misrepresented
to NSF. The award jacket indicated that NSF, at the same time it
learned that the alleged co-PIwas not involved in the project, was
informed that the alleged collaborator had officially left the
                            page 2 of 3                      M95-01
                      CLOSEOUT FOR M95010001
university. OIG concluded that, although the subject might have
provided N S F with more complete and timely information about the
alleged collaboratorrs involvement in the project, his action did
not significantly deviate from accepted practice in this regard and
could not be considered serious.
     The open letter also raised the possibility that funds awarded
the university in Award #1 had not been used for their intended
purpose and "still sit in a university account."        It further
alleged that the equipment whose purchase the funds were intended
to support had been purchased with other grant money. We referred
this issue to OIG1s investigations section, which, with assistance
from OIG auditors, found that the evidence did not support this
allegation.
     After receiving information about internal dissension at the
university that involved Award #2 and the declined proposal, N S F
management received two reports from independent committees that
scrutinized the activities that Award #2 was intended to support or
facilitate. N S F management also learned that the university had
attempted to alleviate its internal conflicts. In the light of all
of this information, N S F chose to fund an additional increment to
Award #2. OIG did not involve itself in these matters because they
involved monitoring whether Award #2 was achieving its goals and
did not raise issues of misconduct in science or other serious
wrongdoing.
     There is no evidence of misconduct in science in this case.
This inquiry is closed, and no further action will be taken
regarding this matter.


cc:   Deputy AIG-Oversight, AIG-Oversight, IG




                            page 3 of 3
